<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



  
  
  AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                                _______

      SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES

                  ROBERT B. ADERHOLT, Alabama, Chairman

  KEVIN YODER, Kansas                SANFORD D. BISHOP, Jr., Georgia
  THOMAS J. ROONEY, Florida          ROSA L. DeLAURO, Connecticut
  DAVID G. VALADAO, California       CHELLIE PINGREE, Maine
  ANDY HARRIS, Maryland              MARK POCAN, Wisconsin
  DAVID YOUNG, Iowa
  STEVEN M. PALAZZO, Mississippi

  
  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                 Tom O'Brien, Pam Miller, Andrew Cooper,
                    Justin Masucci, and Elizabeth King
                            Subcommittee Staff

                              __________

                                 PART 5B
                                 
                        OFFICE OF THE SECRETARY

                                                                  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                  

                            __________

          Printed for the use of the Committee on Appropriations
          
          
          
          

                    U.S. GOVERNMENT PUBLISHING OFFICE

  28-275                  WASHINGTON : 2018

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\             NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama             MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                      PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho               JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas             ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                   DAVID E. PRICE, North Carolina
  KEN CALVERT, California                 LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                      SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida              BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania           BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                     TIM RYAN, Ohio
  KEVIN YODER, Kansas                     C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                  DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska              HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida               CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee       MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington       DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                    MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California            GRACE MENG, New York
  ANDY HARRIS, Maryland                   MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                    KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                  PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
   ----------
  <SUP>\1\}</SUP>Chairman Emeritus

 

                   Nancy Fox, Clerk and Staff Director

                                   (ii)

 
AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2018
                


[TEXT NOT AVAILABLE]



</pre></body></html>
